       UNITED STATES MARINE CORPS
2012 FINANCIAL REPORT
   SCHEDULE OF BUDGETARY ACTIVITY
     FOR FISCAL YEAR 2012 APPROPRIATIONS
SEMPER FIDELIS                                                                                         2012 FINANCIAL REPORT                    FY 2012




Table of Contents

Message from the Fiscal Director of the Marine Corps ............................................................................. 3

Management’s Discussion & Analysis ........................................................................................................ 4

   America's Expeditionary Force in Readiness............................................................................................ 4
   Uncertainty, Complexity, Instability, Chaos............................................................................................. 5
   Strategic Guidance and Decisions............................................................................................................. 5
   Marine Corps Expeditionary Readiness .................................................................................................... 6
   Key Concepts ............................................................................................................................................ 6
   Marine Corps Value to the Nation ............................................................................................................ 8
   Management Assurance ............................................................................................................................ 8
   Financial Reporting Environment ............................................................................................................. 9
      Financial Management Enterprise ..................................................................................................... 10
      Financial Highlights ........................................................................................................................... 13
General Fund Schedule of Budgetary Activity ......................................................................................... 15

   Notes to the General Fund Schedule of Budgetary Activity ................................................................... 17
   Other Accompanying Information .......................................................................................................... 22
Independent Auditor’s Report ................................................................................................................... 24




                                                                                                                                www.marines.mil                  1
    FY 2012   UNITED STATES MARINE CORPS                              SEMPER FIDELIS




                                    (Page left intentionally blank)




2    www.marines.mil
SEMPER FIDELIS                                                         2012 FINANCIAL REPORT       FY 2012



Message from the Fiscal Director of the Marine Corps

                                      DEPARTMENT OF THE NAVY
                               HEADQUARTERS UNITED STATES MARINE CORPS
                                     3000 MARINE CORPS PENTAGON
                                      WASHINGTON, DC 20350-3000




December 20, 2013

The Marine Corps is America’s expeditionary force in readiness, providing a
responsive and scalable presence around the world that is prepared to respond
to today’s crisis… with today’s force… Today! The Commandant of the
Marine Corps, in his Planning Guidance, highlights the necessary actions to
keep Marines focused on both the current fight and the future. First and
foremost, Marine units deploying to Afghanistan will be the best trained and
equipped; and we will simultaneously care for our Wounded Warriors and
our Marine families. Concurrently, the Marine Corps will rebalance to
posture itself for the future and aggressively experiment with and implement
new capabilities and organizations. This will require better educated and
trained Marines to succeed in distributed operations and increasingly
complex environments. Throughout all, we will keep faith with our Marines,
our Sailors and our families. Key to achieving all of these outcomes is sound financial management that
informs decisions about where and when to apply resources to meet national defense requirements.

Consistent with the Commandant’s guidance, the Marine Corps’ approach to audit readiness has been to
heighten current financial discipline and processes while remaining aligned with the Department of
Defense’s strategic direction. The Marine Corps continues to lead the U.S. Armed Forces by pursuing an
independent audit of its budgetary activity schedule for current year appropriations that is also compliant
with Generally Accepted Accounting Principles (GAAP). The audit of this financial report will attest to
the positive outcomes of valid and precise financial information, fiscal accountability, prior audit lessons
learned, and years of financial improvement via systems integration, process baselining, personnel
training and sound leadership oversight. While the Marine Corps does produce the same financial
statements and notes as the Department of the Navy, this financial report presents only the discrete
Marine Corps General Fund Schedule of Budgetary Activity, accompanying notes and pertinent
information for the 2012 fiscal year.

The Marine Corps takes seriously the fiduciary responsibility associated with defending our Nation, and
we are committed to fiscal soundness, transparency, and accountability. This year’s financial report
demonstrates our dedication to assure the public that we are efficient and prudent stewards of the nation’s
resources entrusted to us.


                                                          ANN-CECILE M. McDERMOTT
                                                          Assistant Deputy Commandant
                                                          Programs and Resources (Resources)/
                                                          Fiscal Director
                                                          United States Marine Corps



                                                                                        www.marines.mil        3
    FY 2012     UNITED STATES MARINE CORPS                                                      SEMPER FIDELIS



    Management’s Discussion & Analysis

    The United States Marine Corps was established on 10 November 1775 to provide security to naval
    vessels and boarding parties, and to conduct limited land engagements in support of naval operations.
    During the 20th century, the Marine Corps pioneered the concept of close air support and developed the
    doctrine of amphibious operations that became vital during the island hopping campaigns in the Pacific
    during World War II. After the war, Congress codified the roles and missions of the Marine Corps in the
    National Security Act of 1947. The Marine Corps’ missions include:
            •   Seizing or defending advanced naval bases and to conduct such land
                operations as may be essential to the prosecution of a naval campaign
            •   Providing detachments and organizations for service in armed vessels for
                the Navy or for the protection of naval property on naval stations and
                bases
            •   Developing with the other Armed Forces, tactics, techniques, and
                equipment employed by landing forces in amphibious operations
                                                                                          Figure 1 - Commandant's
            •   Training and equipping, as required Marine forces for airborne operations Planning Guidance 2010
            •   Developing with other Armed Forces, doctrine, procedures, and equipment of interest to the
                Marine Corps for airborne operations which are not provided for by the Army
            •   Expanding from peacetime components to meet the needs of war in accordance with
                mobilization plans.

                                   The United States Marine Corps
                      America's Expeditionary Force in Readiness
    During the past year, your United States Marines have responded to unexpected crises, irregular threats,
    and challenges around the world: humanitarian-assistance and disaster-relief efforts in Japan; non-
    combatant evacuation operations in Tunisia; counter-piracy missions in the Gulf of Aden; air strikes over
    Libya; and reinforcing U.S. embassies in the Middle East amid a wave of civil turmoil...all while 19,000
    Marines and Sailors continued the fight in Afghanistan. These events underscore the value of the Marine
    Corps to the Nation and why its programs are so important to the Corps.




       The Marine Corps is America’s Expeditionary Force in Readiness — a balanced air-ground-logistics team.
       We are forward deployed and forward engaged: shaping, training, deterring, and responding to all
       manner of crises and contingencies. We create options and decision space for our Nation’s leaders. Alert
       and ready, we respond to today’s crisis, with today’s force … today! Responsive and scalable, we team
       with other Services, allies and interagency partners. We enable and participate in joint and combined
       operations of any magnitude. A middleweight force, we are light enough to get there quickly, but heavy
       enough to carry the day upon arrival, and capable of operating independent of local infrastructure. We
       operate throughout the spectrum of threats — irregular, hybrid, conventional — and the shady areas
       where they overlap. Marines are ready to respond whenever the Nation calls … wherever the President
       may direct.
                                                         – General James F. Amos
                                                           35th Commandant of the Marine Corps




4     www.marines.mil
SEMPER FIDELIS                                                            2012 FINANCIAL REPORT         FY 2012



                    Uncertainty, Complexity, Instability, Chaos
 Our Nation confronts an uncertain, ambiguous, and dangerous, future. We cannot predict where or when
we will need to respond on short notice, but we know that the Marine Corps will be called upon to
safeguard U.S. citizens, interests, and allies worldwide. The events of the past year set the baseline for a
“new normal” characterized by a complex world of uncertainty, instability, and chaos: poverty,
urbanization, extremism, and failed states that often become safe havens for terrorist, insurgent, and
criminal groups. There is increasing competition for scarce natural resources that fuels regional tension,
crisis, and conflict.
As the Secretary of Defense underscored in January 2012,


    …even as our large-scale military campaigns recede, the United States still faces a complex and growing
    array of security challenges across the globe. And…, the fact is that there remain a number of challenges
    that we have to confront, challenges that call for reshaping of America’s defense priorities: focusing on
    the continuing threat of violent extremism, which is still there and still to be dealt with; proliferation of
    lethal weapons and materials; the destabilizing behavior of nations like Iran and North Korea; the rise of
    new powers across Asia; and the dramatic changes that we’ve seen unfold in the Middle East.
                                               – The Honorable Leon E. Panetta
                                                 Secretary of Defense

This is the world in which we will live…this is where America’s Marines will operate.

                             Strategic Guidance and Decisions
Your Marine Corps is changing to meet the evolving threats and challenges that confront the Nation. The
Defense Strategic Guidance issued by the President and the Secretary of Defense in 2012 –– Sustaining
U.S. Global Leadership: Priorities for 21st Century Defense –– provides the framework by which the
Marine Corps will balance the demands of the future security environment with the fiscal realities of the
budget. The Guidance calls for a future force that will be affordable but also will “remain capable across
the spectrum of missions, fully prepared to deter and defeat aggression and to defend the homeland and
our allies in a complex security environment.”
We will sustain a quality expeditionary force that is fully capable of executing its assigned missions and
takes into account the strategic “pivot” to the Pacific and Central Command regions. The Marine Corps
and the Navy are already positioned to support that strategy and will remain vigilant and capable to
respond on short notice in other areas of the world. Our 2010 force structure assessment, coupled with the
2011-12 Defense Strategic Guidance review, resulted in the following decisions to:
•   Reduce the end strength of the active component of the Marine Corps from 202,000 beginning this
    fiscal year to 182,100 by the end of Fiscal Year (FY) 2016.
•   Design a force with capability optimized for forward-presence, engagement, and rapid crisis response.
•   Fund readiness levels required for immediate deployment and crisis response, as well as material reset
    and modernization programs.
•   Re-shape organizations, capabilities and capacities to increase aggregate utility and flexibility across
    the range of military operations.



                                                                                            www.marines.mil         5
    FY 2012     UNITED STATES MARINE CORPS                                                       SEMPER FIDELIS



    •    Enhance support to the U.S. Special Operations and Cyber Commands.
    •    Balance critical capabilities and enablers across our air-ground-logistics teams, ensuring that low-
         density/high-demand assets became right-density/high-demand assets.
    •    Incorporated the lessons learned from ten years of war — in particular, the requirements to field a
         force that is manned, trained, and equipped to conduct distributed operations.
    •    Create an operational reserve component capability without any reductions in the reserve force
         structure of 39,600 Marines.
    •    Design the force for more closely integrated operations with our Navy, special operations and inter-
         agency partners.

                           Marine Corps Expeditionary Readiness
    The Marine Corps primary strategic advantage for the Nation’s defense is to create options and decision
    space for America’s civilian and military leaders. As a maritime nation with global commitments and
    responsibilities, the United States relies on the Marine Corps for the unparalleled ability to project U.S.
    power rapidly across the global land, sea, air, space, and cyber “commons.” Today, Marines stand ready
    to come from the sea to conduct missions across the full range of military operations.
    Our role as America’s crisis-response force requires a high state of individual and unit readiness and the
    ability to sustain operations with organic logistics and resupply. We must be ready to deploy today and
    begin operating upon arrival, even in the most austere environments.

                                                Key Concepts
    Robust, forward-deployed forces with balanced ground, aviation, and logistics units enable us to “go
    now,” figure things out when we get there, and begin operating immediately––even in the most austere
    environments. Our inherent agility and speed buy time for national leaders to develop strategic options,
    shape the environment, and deploy the full capabilities of the joint force and other elements of national
    power. In short, the Marine Corps repeatedly exhibits exactly what the 82nd Congress envisioned in 1952:
           “…the vital need for the existence of a strong force in readiness. Such a force, versatile, fast-
           moving, and hard-hitting, will constant have a powerful impact in relation to minor
           international disturbances…. Such a force can prevent the growth of potentially large
           conflagrations by prompt and vigorous action during their incipient stages…. The Nation’s
           shock troops must be the most ready when the Nation is generally least ready…to provide a
           balanced force in readiness for a naval campaign and, at the same time, a ground and air
           striking force ready to suppress or contain international disturbances short of large-scale
           war.”
    A “Middleweight” Force from the Sea
    As the Nation’s sea-based “middleweight force,” Marines operate in a “lane” that intersects all
    warfighting domains — land, sea, air, space and cyber — throughout a matrix of threats and challenges.
    The Marine Corps is light enough to arrive rapidly at the scene of a crisis, but heavy enough to sustain
    itself upon arrival, thus bringing connectivity between the Nation’s heavy conventional and light special
    operations forces. Although the Marine Corps is not designed to be America’s second land army, since




6       www.marines.mil
SEMPER FIDELIS                                                        2012 FINANCIAL REPORT       FY 2012


1775 Marines have been called to support sustained operations ashore. Most fundamentally, the Corps is a
critical element of America’s integrated naval forces to project power from the sea.
Respond to Crises…Project Power
Marines have responded to crises and conducted amphibious operations throughout the world more than
100 times during the past two decades. The vast majority of our expeditionary operations focused on
humanitarian assistance, disaster response, and limited contingency and theater-entry operations. The
Navy-Marine Corps Team provides the capability for massing potent forces close to a foreign shore,
while maintaining a diplomatically sensitive low profile. In an era of a general drawdown of U.S. and
allied forces worldwide, the geographic combatant commanders have increased their demand for forward-
postured Marine Corps/Navy amphibious forces capable of conducting security cooperation, regional
deterrence, crisis response, and full-scale combat.
Expeditionary Mindset
The Marine Corps is an “expeditionary” force. This drives the way we organize our forces, how we train,
and what equipment we buy, and necessitates a constant high state of unit readiness. Expeditionary means
that we are fully capable of operating in austere environments. When we deploy we bring the water, fuel,
supplies, and weapons that our Marines and Sailors need to accomplish the mission. Our unique forward
posture aboard amphibious ships, manned by well-trained and equipped Marines and Sailors, positions us
to be first to the fight with the logistical resources to remain engaged for as long as needed.

Sustained Forward Presence
Forward-deployed naval forces are a deterrent and provide a flexible, agile response capability for any
contingency. Sustained forward presence helps to provide stability to areas of strategic importance. From
the sea, Marines support our partners and our allies, respond to crisis where we have no access rights or
permissive facilities, and protect our national interests around the world. “Being there” demonstrates our
economic, political, and military commitment to a particular region. It deters potential adversaries and
assures our friends.

Littoral Maneuver
Amphibious capabilities provide the means to conduct littoral maneuver — the ability to maneuver
combat ready forces from the sea to the shore and inland in order to achieve a positional advantage over
the enemy. Operating in the littoral environment demands the close integration of air, sea and land power.
Working seamlessly, the Navy and Marine Corps Team provides the essential elements of access and
forcible entry that are necessary components of a joint campaign.

Joint and Combined Operations
The Marine Corps will continue to operate in a unique “lane” in the capability range of America’s armed
forces under the new Defense strategy. Marines instinctively understand the logic and synergy behind
joint operations. This extends to combined operations with allies and friends. Our ability to deploy rapidly
and globally allows us to set the stage and enable the transition to follow-on joint forces. Our Marine Air
Ground Task Force (MAGTF) structure — with organic ground, aviation, logistics, command and
control, intelligence, fires and other assets — enables us to seamlessly team with other U.S. and partner
forces, providing broad options for the joint force commander.



                                                                                        www.marines.mil        7
    FY 2012    UNITED STATES MARINE CORPS                                                     SEMPER FIDELIS



    Military Engagement
    The security challenges of the early 21st Century require an expansion of America’s global engagement
    with partners, allies, and friends to promote collaborative approaches to common security concerns. Our
    support of the geographic combatant commanders enables host-nation forces to address local and regional
    threats. Engagement promotes regional stability and the growth of democracy while also deterring
    aggression. This requires Marines who are not only fighters, but also who can serve as trainers, mentors
    and advisers.

                              Marine Corps Value to the Nation
    For a remarkably small investment, the Marine Corps provides the protection our Nation needs in an
    increasingly uncertain but still-dangerous world. Marines and their weapons and equipment account for
    only 8.2% of the total Department of Defense (DoD) FY 2012 budget, but that still delivers the ability to
    respond to crises –– from humanitarian-assistance and disaster-relief efforts to non-combatant evacuation
    operations to counter-piracy operations –– as well as full-scale combat. When the Nation pays the
    affordable “sticker price” for its Marines, it buys the ability to remain forward deployed and forward
    engaged, to reinforce alliances and build partner capacity, and be ready to respond at a moment’s notice
    should crisis or conflict erupt.

                                      Management Assurance
    Commanders and managers throughout the Marine Corps must ensure the integrity of their programs and
    operations. Part of this responsibility entails compliance with Federal requirements for financial
    reporting, financial management systems, and internal controls, such as the Federal Financial
    Management Improvement Act (FFMIA) and the Federal Managers’ Financial Integrity Act (FMFIA).
    These requirements promote the production of more timely, reliable, and accessible financial information,
    supported by the development and implementation of more effective internal controls. More useful
    financial information and effective controls save money and improve efficiency, thereby enhancing public
    confidence in our stewardship of public resources, which is critical for the protection and sustainment of
    our nation and vital U.S. interests.

    Federal Financial Management Improvement Act
    The FFMIA of 1996 requires agencies to implement and maintain financial management systems that
    comply substantially with Federal financial management systems requirements, applicable Federal
    accounting standards, and the U.S. Standard General Ledger (USSGL) at the transaction level. FFMIA
    supports the same objectives as the Chief Financial Officers Act of 1990 but with a systems emphasis.
    For this Schedule of Budgetary Activity (SBA), the Marine Corps, Defense Finance and Accounting
    Service (DFAS), and Defense Logistics Agency (DLA) are jointly responsible for implementing and
    maintaining financial management, accounting and reporting systems that substantially comply with
    Federal financial management systems requirements, U.S. generally accepted accounting principles
    (USGAAP), and the USSGL at the transaction level. We have assessed the current U.S. Marine Corps
    General Fund (USMC GF) financial management systems environment based on Office of Management
    and Budget (OMB) guidance and determined that although systems need enhanced controls to be
    compliant with FFMIA, the USMC GF core accounting system (i.e. SABRS) provides sufficient evidence
    supporting various material amounts on the SBA financial report and complies with applicable USGAAP



8     www.marines.mil
SEMPER FIDELIS                                                       2012 FINANCIAL REPORT       FY 2012


and USSGL requirements at the transaction level. Remedial and/or compensating actions are underway
to correct identified deficiencies for FY 2012. These actions include the correction of deficiencies, the
implementation of work-around solutions, and the use of compensating controls to reduce the risk of
potential misstatement at the financial reporting level. Business feeder systems owned by others are
under their control and responsibility. Business feeder system owners are separately required to ensure
compliance with Federal financial management system requirements.

Federal Managers’ Financial Integrity Act
The FMFIA of 1982 requires agencies to evaluate their system of internal accounting and administrative
controls and to report on the effectiveness of these controls in an annual statement of assurance. Appendix
A of OMB Circular A-123 provides specific requirements for conducting management’s assessment of
internal control over financial reporting, and also requires the agency head to provide an assurance
statement on the effectiveness of internal controls over financial reporting. We assessed our systems of
internal control over non-financial operations and financial reporting in effect as of September 30, 2012.
Based on these assessments, we provided qualified assurance on the effectiveness of our internal controls
over non-financial operations. The Marine Corps also provided a qualified statement of assurance for the
internal control over financial reporting for select assessable units influencing the SBA focus areas
highlighted in the May 2012 Financial Improvement and Audit Readiness (FIAR) Plan Status Report,
Completion of corrective actions for several noted material weaknesses is expected by September 2014.

                          Financial Reporting Environment
The Marine Corps, which has been designated as a Non-OMB Reporting Entity by the DoD, maintains
accountability for its appropriated General Funds and shared appropriations provided by the Department
of the Navy (DON).
Additionally, Statement of Federal Financial Accounting Concepts (SFFAC) Number 2, Entity and
Display, states that reporting entities are entities that issue general-purpose financial statements to
communicate financial and related information about the entity. Although its general-purpose financial
statements (incorporated within the DON’s financial statements) are not presented here, the Marine Corps
does meet the following criteria, as required by SFFAC No. 2 to be designated as a reporting entity:
        There is a management responsibility for controlling and deploying resources,
        producing outputs and outcomes, executing the budget or a portion thereof
        (assuming that the entity is included in the budget), and held accountable for the
        entity's performance.
        The entity's scope is such that its financial statements would provide a meaningful
        representation of operations and financial condition.
        There are likely to be users of the financial statements who are interested in and
        could use the information in the statements to help them make resource allocation
        and other decisions and hold the entity accountable for its deployment and use of
        resources.




                                                                                       www.marines.mil        9
     FY 2012     UNITED STATES MARINE CORPS                                                        SEMPER FIDELIS



     Financial Management Enterprise
     The Marine Corps Financial Management Enter-
                                                              Marine Corps Financial Management Enterprise
     prise is composed of 4 layers. These layers
     consist of the Feeder systems and Data Call
     layer, the Marine Corps Core Accounting layer,                Marine Corps Financial Statement Reporting

     the Defense Finance and Accounting Service
     (DFAS) Accounting Support layer, and the                            DFAS Marine Corps Accounting
     Marine Corps Financial Statement Reporting                                    Support

     layer (which includes lower level reports, such as
     this Schedule). This diagram depicts each layer                     Marine Corps Core Accounting
     of the Marine Corps Financial Management
     Enterprise.
                                                                         Feeder Systems and Data Calls
     The sections below describe the Marine Corps
     Financial Management Enterprise layers in more
     detail and show the flow of data through several
     layers.

     Marine Corps Core Accounting
     The Standard Accounting, Budgeting and Reporting System (SABRS) accounts for all U.S. Marine Corps
     funds throughout the appropriation life cycle and contains financial data from the installation level up to
     Headquarters, Marine Corps (HQMC). SABRS was designed to meet fiduciary standards established by
     the Government Accountability Office (GAO), OMB, U.S. Treasury Department, and the DoD. SABRS,
     in its operational state, has been independently tested and reviewed in accordance with OMB Office
     Federal Financial Management (OFFM)/Joint Financial Management Improvement Program (JFMIP)
     standards. SABRS serves as a proven, modern, compliant government-owned accounting system that
     meets and provides the following:
             •   Incorporates a DLA template from the former Business Transformation Agency (BTA)
             •   Transaction driven USSGL data
             •   JFMIP tested in configured operational environment
             •   Business intelligence (made to order reports via COGNOS REPORTNET)
             •   Data structure compliant with DoD Standard Financial Information Structure (SFIS), Phase 1
                 requirements
             •   Online general ledger update
             •   Batch general ledger transaction update for multiple source feeder systems
             •   Table driven
             •   Individual command and agency level trial balance reports
             •   Real-time contingency cost reporting for cost of war and natural disasters
             •   Defense Departmental Reporting System (DDRS) – Budgetary Module trial balance feed
             •   Daily Departmental Reports to include DD 1002, SF 133, etc. with drill down capability to
                 the detail transaction level
             •   Daily Balance Sheet and Statement of Budgetary Resources with drill down capability to the
                 detail transaction level
             •   Transactional or summary feeds to the Business Enterprise Information Services (BEIS)




10     www.marines.mil
SEMPER FIDELIS                                                        2012 FINANCIAL REPORT      FY 2012


Feeder Systems
The Marine Corps enterprise consists of numerous feeder systems that interface and share financial
transactional data with the Marine Corps accounting system. SABRS is the Marine Corps’ core
accounting system for all general fund appropriations, designated as its system of record and approved by
DLA. Over 90% of detail source financial transactions are processed into SABRS from a feeder system.

SABRS and Feeder System Control Environment
The chart to the right illustrates the interaction of SABRS and feeder systems.

Business Systems to SABRS
Transaction Linkages for Contract
Acquisition Process
SABRS processes and posts the
proper phase of the transaction
cycle (i.e. commitment, obligation,
expense, and liquidation) and
updates the appropriate USSGL
accounts for budgetary and propri-
etary accounting.
SABRS updates the General
Ledger and Transaction History
Files after it receives detailed trans-
actions from its business feeder
systems. On a daily basis, SABRS
updates the Marine Corps General
Fund activity by passing the
information contained in General
Ledger and the Transaction History
Files to BEIS and DDRS.
Of the feeder systems that interface
with SABRS, there are 25 con-
sidered Tier 1 feeder systems. Tier
1 feeder systems provide direct
input to and/or receive direct
output from SABRS and are listed
below.
       SYS ID                                     SYSTEM NAME                                   OWNER
  BSM-E              Business System Modernization Energy                                        DLA
  DAASC DNCS         Defense Automatic Addressing System Center Network Control System           DLA
  DCAS               Defense Cash Accountability System                                          DLA
  DDRS*              Defense Departmental Reporting System                                       DLA
  DTS                Defense Travel System                                                       DLA
  SPS                Standard Procurement System                                                 DLA



                                                                                         www.marines.mil    11
     FY 2012    UNITED STATES MARINE CORPS                                                      SEMPER FIDELIS



        WAWF             Wide Area Work Flow - Receipt & Acceptance/Misc. Payment                    DLA
        SCS              Stock Control System                                                       USAF
        EMP              eMARKETPLACE                                                               DON
        NHBS/PBIS        Navy Headquarters Budget Systems / Program Budget Information System       DON
        PCAS             Purchase Card Automation System (CitiDirect)                               DON
        RHICS            Regional Hazardous Inventory Control System                                DON
        UADPS            Uniform Automated Data Processing System                                   DON
        GSA              General Services Administration (ServMart)                                  GSA
        DSSC             Direct Support Stock Control System                                        USMC
        GCSS-MC          Global Combat Supply System – Marine Corps                                 USMC
        MCPDT            Marine Corps Permanent Duty Travel                                         USMC
        MCTFS            Marine Corps Total Force System                                            USMC
        MROWS            Marine Reserve Order Writing System                                        USMC
        ROWS             Reserve Order Writing System                                               USMC
        PRB              Purchase Request Builder (PR Builder)                                      USMC
        SASSY            Supported Activities Supply System                                         USMC
        DCPS             Defense Civilian Pay System                                                DFAS
        PWRTRACK         PowerTrack (USBank)                                                        DFAS
        SAB1TRV          SABRS 1 Travel Order Writing System                                        DFAS
     * SABRS provides output to DDRS.
                                     Table 1. Marine Corps Tier 1 Feeder Systems

     DFAS Accounting Support
     DFAS supports the Marine Corps by providing accounting services to include retrieval of the Marine
     Corps financial data from SABRS and creating the Marine Corps financial reports.
     To provide Marine Corps accounting support, DFAS utilizes the Defense Departmental Reporting System
     (DDRS), a web-based system and the sole reporting system used for preparing the Marine Corps financial
     reports. Two modules of DDRS—the Audited Financial Statements Module (DDRS-AFS) and the
     Budgetary Module (DDRS-B)—standardize the Marine Corps reporting process and produce the
     quarterly and annual departmental reports based on the USSGL.
     The Marine Corps produces its trial balance from the SABRS general ledger file and imports it into
     DDRS-B. The Marine Corps uses DDRS-B to balance budgetary accounts and produce budgetary
     reports, including the SF-133, Report on Budget Execution and Budgetary Resources (SF-133), this
     Schedule and others. DFAS compiles and uploads the Marine Corps Trial Balance from SABRS into the
     DDRS-B application and records adjustments, generates reports, and attaches footnotes.




12     www.marines.mil
SEMPER FIDELIS                                                       2012 FINANCIAL REPORT       FY 2012



Financial Highlights
Marine Corps Appropriations
To support its core mission, the Marine Corps received approximately $28.7 billion in General Fund
Appropriations for FY 2012. The Marine Corps General Funds are Congressional appropriations to
include military personnel, operations and maintenance, and procurement.




Status of Funds
The status of $29.4 billion in budgetary resources consists of the obligations incurred (Direct and
Reimbursable) and the unobligated balances at the end of the period. The total amount displayed for the
status of budgetary resources will equal the total budgetary resources available to the reporting entity as
of the reporting date.




                                                                                       www.marines.mil        13
     FY 2012   UNITED STATES MARINE CORPS   SEMPER FIDELIS




14    www.marines.mil
General Fund Schedule of Budgetary Activity

As stated in the DoD Financial Management Regulation (FMR) Volume 6B Chapter 1 “Introduction and
Summary” dated June 2012, DoD recognizes the Marine Corps as a Non-OMB Reporting Entity.
The FMR states that “These [Non-OMB Reporting] entities are no longer subject to the formal financial
statement reporting requirements previously established by DoD and are not a required ‘reporter’ per
OMB A-136. These entities have demonstrated the ability to prepare financial statements and conduct the
appropriate analyses, therefore quarterly financial statements, accompanying notes, and the related
variance analysis are not required to be submitted to the Office of the Under Secretary of Defense
(Comptroller) (OUSD(C)) for review. …each non-OMB reporting entity will determine their internal
reporting and audit requirements, as deemed necessary for continued improvement of financial data and
achievement of audit objectives.”
On this premise, the Marine Corps continues with preparing comprehensive, subsidiary financial
statements and related notes started in FY 2006. From the issuance of those initial financial statements,
the Marine Corps has devoted significant effort toward being the first U.S. combatant Service entity to
undergo an independent audit of its financial statements, reports, and note disclosures, which reinforces
sound financial processes and procedures.
In concert with the Department’s timeline and objectives, the Marine Corps progresses toward the same
goal of reliable financial statements, backed by clean audit reporting. In so doing, the Marine Corps
issues this budgetary activity schedule with the specific scope of its current fiscal year appropriations.
The following report is a schedule of those appropriations enacted for periods starting with the FY 2012.
USMC FY 2012 Schedule of Budgetary Activity (SBA) is derived from the September FY 2012 SF-133,
Report on Budget Execution and Budgetary Resources (SF-133) for the FY 2012 appropriations only.
Each SF-133 (a separate report for each appropriation) is combined with totals reported on SBA. OMB
Circular A-11, Preparation, Submission and Execution of the Budget, Section 130, “SF 133, Report on
Budget Execution and Budgetary Resources” states the purposes of the SF-133 as follows:
    1.   Fulfill the requirement in 31 U.S.C. 1511–1514 that the President review Federal expenditures at least four
         times a year,
    2.   Allow status monitoring for funds that were apportioned on the SF-132, Apportionment and
         Reapportionment Schedule and funds that were not apportioned,
    3.   Provide a consistent presentation of information across programs within each agency, and across agencies,
         which helps program, budget, and accounting staffs to communicate,
    4.   Provide historical reference that can be used to help prepare the President's Budget, program operating
         plans, and spend-out rate estimates,
    5.   Provide a basis upon which to determine obligation patterns when programs are required to operate under
         continuing resolution, and
    6.   Tie an agency's financial statements to its budget execution. The compilation of an agency's SF133s should
         generally agree with an agency's Statement of Budgetary Resources.

The SBA and SF-133 present the following sections: Budgetary Resources, Status of Budgetary
Resources, Change in Obligated Balance, Budget Authority and Outlays, and Unfunded Deficiencies.




                                                                                              www.marines.mil          15
     FY 2012   UNITED STATES MARINE CORPS          SEMPER FIDELIS


     General Fund Schedule of Budgetary Activity




16    www.marines.mil
SEMPER FIDELIS                                                      2012 FINANCIAL REPORT      FY 2012



Notes to the General Fund Schedule of Budgetary Activity
Background
Marine Corps leadership has entered into agreement with the Department of Defense, Office of Inspector
General (DoDIG) to submit and provide support to a General Fund (USMC GF) Schedule of Budgetary
Activity audit for the fiscal year ended September 30, 2012. The Office of the Under Secretary of
Defense (Comptroller) [OUSD(C)] and the DoDIG agreement was based on results of the attribute
assessment performed by OUSD(C) Financial Improvement and Audit Readiness (FIAR) and DoDIG
review and U.S. Government Accountability Office (GAO) comments and guidance. The following notes
to the Schedule of Budgetary Activity (SBA) are an integral part of the report:

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
1.A. Basis of Presentation
The United States Marine Corps (USMC), a component of the Department of the Navy (DON), has
prepared the SBA to report on General Fund (GF) appropriations warranted in FY 2012 as highlighted in
Note 1.B. The SBA has been prepared from the books and records of USMC GF, to the extent applicable,
based on U.S. generally accepted accounting principles (USGAAP) promulgated by the Federal
Accounting Standards Advisory Board, and specific guidance contained in the Treasury Financial
Manual (TFM) and the Department of Defense (DoD) Financial Management Regulation (FMR). The
SBA reports the activity of specific budgetary resources provided to the USMC and their use/status.
Primarily, the SBA reflects the funding provided (appropriations enacted, apportioned, and allotted), the
use of those funds via obligations (undelivered and delivered orders), payments and available balances
until the appropriation expires and is cancelled in the U. S. Treasury. The SBA is created using detailed
transaction information collected from Standard Accounting, Budgeting and Reporting System (SABRS)
and the Defense Departmental Reporting System (DDRS).

1.B. Appropriations and Funds
The USMC GF receives appropriations and funds as general and special funds. These appropriations and
funds may be either provided solely to USMC GF or shared with other DON activities. The USMC GF
uses these appropriations and funds to execute its mission and subsequently report on resource usage.
General funds are used for financial transactions funded by congressional appropriations, including
military personnel, operation and maintenance, research and development, and procurement. Special
funds accounts are used to record government receipts reserved for a specific purpose. For the purposes
of this SBA, the USMC did not receive appropriations for a specific purpose in FY 2012 and is not
reporting on any special funds.
                         Appropriations, Funds and Accounts included in the
                                     Schedule of Budgetary Activity
                                  For Fiscal Year 2012 Appropriations
           Appropriation
                                                       Appropriation Name
              Number
       17 2012/2012 0735        Family Housing Management Account, (DEF)
       17 2012/2012 1105        Military Pay, Marine Corps
       17 2012/2012 1106        Operation and Maintenance, Marine Corps (O&M, MC)



                                                                                     www.marines.mil        17
     FY 2012    UNITED STATES MARINE CORPS                                                      SEMPER FIDELIS



              Appropriation
                                                            Appropriation Name
                 Number
           17 2012/2012 1107        Operation and Maintenance, Marine Corps Reserve (O&M, MCR)
           17 2012/2012 1108        Reserve Personnel, Marine Corps (RPMC)
           17 2012/2014 1109        Procurement, Marine Corps (PMC)
           17 2012/2013 1319        Research, Development, Test, and Evaluation, Navy (RDT&E,N)
           17 2012/2014 1508        Procurement, Ammunition Navy & Marine Corps (PANMC)

     1.C. Basis of Accounting
     The USMC employs accrual accounting and recognizes expenses against legal encumbrances as services
     are received or rendered, whether paid or not. As such and for the purpose of the SBA, resources are
     aligned against obligated balances (undelivered and delivered) where an expectation exists that a
     consequent collection or outlay will result (either immediately or in the future) from action, agreement, or
     delivery when recognized and realized. Many of USMC GF’s financial and nonfinancial feeder systems
     and processes were designed and implemented prior to the issuance of USGAAP. Originally, these
     systems were not designed to collect and record financial information on the full accrual accounting basis
     as required by USGAAP. Most of USMC GF’s financial and nonfinancial legacy systems recorded
     information primarily on a budgetary basis. Therefore, the USMC enters adjustments into its GF
     financial management systems to meet all full accrual accounting requirements.

     The DoD is determining the actions required to bring financial and nonfinancial feeder systems and
     processes into compliance with USGAAP. The USMC core accounting system SABRS is a transaction
     driven general ledger accounting system that utilizes standardized transactions for processing. The USMC
     GF management recognizes the existence of USMC GF dependencies related to DoD financial and
     nonfinancial systems. SABRS is interfaced with DoD approved business enterprise systems, such as the
     Defense Travel System, Standard Procurement System, Defense Civilian Personnel System, Defense
     Cash Accountability System and DDRS. These interfaces improve financial reporting and eliminate
     manual recording by capturing data from the source systems. Until all USMC GF financial and
     nonfinancial feeder systems and processes are updated to collect and report financial information as
     required by USGAAP, USMC GF’s financial data will be derived from budgetary transactions, data from
     nonfinancial feeder systems, and accruals.

     1.D. Accounting for Intragovernmental Activities
     Accounting standards require that an entity eliminates intra-entity activity and balances from consolidated
     financial statements in order to prevent overstatement for business with itself. The USMC GF accounts
     for all intragovernmental transactions at the transaction level. In an effort to more efficiently identify
     intragovernmental transactions by customer, USMC GF has implemented the DoD’s trading partner
     requirements in its accounting system to capture trading partner data. To this end, USMC is continuously
     working towards strengthening its processes in order to ensure full compliance and reporting transparency
     for intragovernmental balances. This includes compliance with TFM, Part 2 - Chapter 4700, “Agency
     Reporting Requirements for the Financial Report of the United States Government,” for reporting and
     reconciling intragovernmental balances.




18     www.marines.mil
SEMPER FIDELIS                                                      2012 FINANCIAL REPORT      FY 2012




1.E. Funds with the U.S. Treasury
The USMC GF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of
Defense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps of
Engineers (USACE), and the Department of State’s financial service centers process the majority of
USMC GF’s cash collections, disbursements, and adjustments worldwide. Each disbursing station
prepares monthly reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency
transfers, and deposits. In addition, DFAS sites and USACE Finance Center submit reports to the U.S.
Treasury by appropriation on interagency transfers, collections received, and disbursements issued. The
U.S. Treasury records these transactions to the applicable Fund Balance with Treasury (FBWT) account.

1.F. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and
collections matched at the transaction level to specific obligations of undelivered and delivered orders-
unpaid in the source system and those reported by the U.S. Treasury. Supported disbursements and
collections are evidenced by corroborating documentation. In accordance to the DoD policy, USMC
allocates supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal expenses. Supported
undistributed disbursements and collections are then applied to reduce expenses accordingly. Similarly,
unsupported undistributed disbursements and collections are recorded as disbursements and collections in
transit and reduce nonfederal expenses.

1.G. Significant Accounting Estimate
The USMC developed and is utilizing a significant accounting estimate to complete the year end
recording of a $152.3 million of un-liquidated obligations related to Transportation Account Code (TAC)
Standard Document Numbers (SDNs). Transportation Account Code SDNs are utilized by the USMC to
capture shipping costs from a number of different sources throughout the DoD. The USMC has estimated
an adjustment (noted as part of the auditor adjustment in the FY12 statement under Obligations incurred,
for $53.7 million) based on prior years liquidations that occurred between FY08 – Q3 FY13 and known
process trends to more accurately reflect the obligation balance at year end. The USMC has implemented
this additional step for these specific SDNs to strengthen the USMC financial presentation and
compliance with all Federal and DOD regulations.




                                                                                     www.marines.mil        19
     FY 2012    UNITED STATES MARINE CORPS                                                        SEMPER FIDELIS



     NOTE 2. APPORTIONMENT OF OBLIGATIONS INCURRED
     Obligations incurred represent the amount of direct and reimbursable obligations incurred against
     amounts apportioned under Category A (CAT A) and Category B (CAT B), as defined in OMB Circular
     A-11, Part 4, Instructions on Budget Execution. CAT A are apportions of budgetary resources by fiscal
     quarters, e.g. quarter one (October 1 through December 31), quarter two (January 1 through March 31),
     quarter three (April 1 through June 30) and quarter four (July 1 through September 30). CAT B are
     apportions of budgetary resources by activities, projects, objects or a combination of these categories.



                                              Direct              Reimbursable            Totals
                      Category A               $24,779.4                            $0     $24.779.4
                      Category B                 $2,235.4                     $407.2        $2,642.6
                         Total                 $27,014.8                      $407.2       $27,422.0
                                      * Figures rounded to the nearest thousand dollars




20    www.marines.mil
SEMPER FIDELIS                                 2012 FINANCIAL REPORT   FY 2012




                 (Page left intentionally blank)




                                                              www.marines.mil    21
     FY 2012   UNITED STATES MARINE CORPS   SEMPER FIDELIS



     Other Accompanying Information




22    www.marines.mil
SEMPER FIDELIS   2012 FINANCIAL REPORT   FY 2012




                                www.marines.mil    23
     FY 2012   UNITED STATES MARINE CORPS   SEMPER FIDELIS



     Independent Auditor’s Report




24    www.marines.mil
SEMPER FIDELIS   2012 FINANCIAL REPORT   FY 2012




                                www.marines.mil    25
     FY 2012   UNITED STATES MARINE CORPS   SEMPER FIDELIS




26    www.marines.mil
SEMPER FIDELIS   2012 FINANCIAL REPORT   FY 2012




                                www.marines.mil    27
     FY 2012   UNITED STATES MARINE CORPS   SEMPER FIDELIS




28    www.marines.mil
SEMPER FIDELIS   2012 FINANCIAL REPORT   FY 2012




                                www.marines.mil    29
     FY 2012   UNITED STATES MARINE CORPS   SEMPER FIDELIS




30    www.marines.mil
SEMPER FIDELIS   2012 FINANCIAL REPORT   FY 2012




                                www.marines.mil    31
     FY 2012   UNITED STATES MARINE CORPS   SEMPER FIDELIS




32    www.marines.mil
SEMPER FIDELIS   2012 FINANCIAL REPORT   FY 2012




                                www.marines.mil    33
     FY 2012   UNITED STATES MARINE CORPS                              SEMPER FIDELIS




                                     (Page left intentionally blank)




34    www.marines.mil
                                               For More Information

                                          Fiscal Director of the Marine Corps
                                             Headquarters, Marine Corps
                                           Programs and Resources Department
                                           http://www.hqmc.marines.mil/pandr/




To request a copy of the financial report and independent auditor’s report, file a Freedom of Information Act request with the United States
Marine Corps. Information on how to file this request can be found at http://www.hqmc.marines.mil/Agencies/USMCFOIA.aspx.




                                                                                                                  www.marines.mil              35
